                                                                             Report No. DODIG-2014-114



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              SEPTEMBER 17, 2014




                     Independent Auditor’s Report
                     on Agreed-Upon Procedures for
                     DoD Compliance With Service
                     Contract Inventory Compilation
                     and Certification Requirements
                     for FY 2012




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste & Abuse

                                     HOTLINE
                                     Department of Defense
                                     dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                                 INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                4800 MARK CENTER DRIVE
                             ALEXANDRIA, VIRGINIA 22350-1500


                                                                           September 17, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
	               TECHNOLOGY, AND LOGISTICS
	              UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS

SUBJECT:	 Independent Auditor’s Report on Agreed-Upon Procedures for DoD Compliance With 		
	         Service Contract Inventory Compilation and Certification Requirements for FY 2012
	         (Report No. DODIG-2014-114)

We are providing this report for review and comment. We performed the procedures described
in the report, which were agreed to by House Armed Services Committee staff. We performed
these procedures solely to assess DoD’s compliance with Federal and DoD requirements when
Components compiled and certified the FY 2012 inventory of contracts for services. Overall,
DoD included required elements in the FY 2012 inventory of contracts for services; however,
DoD was inconsistent in reporting its service contracts. Components did not include all the
required elements and varied in the level of information they provided in the certification
letter to signify completion of their FY 2012 review of contracts for services. In addition,
guidance directing the Component FY 2012 review of the inventory of contracts for services
was at times unclear.

In preparing the final report, we considered management comments the Office of the Secretary
of Defense provided on a draft of this report. We also received unsolicited comments from
several DoD Components, which we considered and made changes, as appropriate. Comments
from the Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics
and the Office of the Under Secretary of Defense for Personnel and Readiness were partially
responsive. DoD Directive 7650.3 requires that all recommendations be resolved promptly.
We request additional comments on Recommendation 1 by October 17, 2014.

Please send a PDF file containing your comments to audcmp@dodig.mil. Copies of your
comments must have the actual signature of the authorizing official for your organization. We
cannot accept the /Signed/ symbol in place of the actual signature. If you arrange to send
classified comments electronically, you must send them over the SECRET Internet Protocol
Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to Deborah Culp
at (703) 604-9335, (DSN 664-9335).


	

	                                             Amy J. Frontz
	                                             Principal Assistant Inspector General
	                                               for Auditing
                                                                                       DODIG-2014-114 │ III
                 Contents
                 Introduction
                 Objectives_________________________________________________________________________________________1
                 Background_______________________________________________________________________________________1

                 Agreed-Upon Procedures Performed and Results on
                 DoD’s FY 2012 Inventory of Contracts for Services___________3
                 Overall Procedures_______________________________________________________________________________3
                      Procedure 1: Confirm DoD’s Inventory of Contracts for
                         Services Submission____________________________________________________________________3
                      Procedure 2: Observations on Inventory of Contracts for
                         Services Compilation Methods_________________________________________________________5
                      Procedure 3: Assess Certification Status of Review______________________________________7
                      Procedure 4: Observations on Certification Methodology_______________________________8
                 Summary_ ______________________________________________________________________________________ 17
                 Component Comments on Our Results ______________________________________________________ 17
                 Recommendations, Management Comments, and Our Response__________________________ 18

                 Appendixes
                 Appendix A. Scope and Methodology________________________________________________________ 21
                      Use of Computer-Processed Data_ _______________________________________________________ 22
                 Appendix B. Review of Certification Letters ________________________________________________ 23

                 Management Comments
                 Office of the Secretary of Defense_____________________________________________________________ 29

                 Acronyms and Abbreviations______________________________________________ 34




IV │ DODIG-2014-114
                                                                                                                       Introduction




Introduction
Objectives
To perform our agreed-upon procedures, we assessed DoD’s compliance with Federal
and DoD requirements when Components1 compiled and certified the FY  2012
inventory of contracts for services (ICS).                       We assessed whether DoD Components
submitted a FY  2012 ICS and certified their review of the specific inventory listed
in the ICS. We also made observations on the methods Components used to identify
the attributes described in the inventory and certification letter and on the
completeness of the certified data. In addition, House Armed Services Committee
(HASC) staff requested that we report on any need to revise legislation or change
implementing guidance.                   See Appendix  A for a discussion of the scope and
methodology related to the engagement objective.


Background
In 2008, Congress required DoD to compile and review an annual ICS.
Section 2330a, title 10, United States Code (10  U.S.C.  §  2330a  [2012]), “Procurement
of Services:           Tracking of Purchases,” establishes the minimum ICS content and
reporting requirements, and requires the Secretary of Defense to submit the
inventory to Congress by June 30 each year.                            Within 90 days after the inventory
is submitted to Congress, 10  U.S.C. § 2330a requires Military Department Secretaries
and the Defense Agency heads to review the contracts to ensure that contracts for
personal services are in accordance with statutory and regulatory requirements,
that the activities do not include inherently governmental functions, and that to
the maximum extent possible, the activities do not include any functions closely
associated with inherently governmental functions.                              These Secretaries and agency
heads are also required to identify activities that should be considered for conversion
to performance by civilian employees or conversion to an acquisition approach
that would be more advantageous to the DoD. The Office of the Under Secretary
of Defense for Acquisition, Technology, and Logistics (OUSD[AT&L]) and the Office
of the Under Secretary of Defense for Personnel and Readiness (OUSD[P&R]),
supported by the Office of the Under Secretary of Defense (Comptroller) are
tasked with providing ICS oversight and guidance.


	1	
      According to DoD Directive 5100.01, “Functions of the Department of Defense and Its Major Components,”
      December 21, 2010, DoD Components include the Office of the Secretary of Defense, the Military Departments,
      the Joint Chiefs of Staff, the Combatant Commands, DoD Office of Inspector General, the Defense Agencies,
      the DoD Field Activities, and all other organizational entities within the Department of Defense.




                                                                                                                    DODIG-2014-114 │ 1
Introduction



                 On February 4, 2013, OUSD(AT&L) and OUSD(P&R) issued “Guidance for the
                 Submission and Review of the Fiscal Year 2012 Inventory of Contracts for Services”
                 (OSD [Office of the Secretary of Defense] Guidance).                                        This guidance required
                 Components to submit their FY 2012 ICS to OUSD(AT&L) and OUSD(P&R) by
                 May  3,  2013, along with a signed transmittal memorandum describing the methods
                 used to collect and populate the inventory and calculate the number of contractor
                 full-time equivalents (CFTEs).2 OUSD(AT&L) then compiled and included Component
                 submissions in DoD’s FY  2012 ICS Report to Congress.                                       Following the inventory
                 submission, Components were required to review their ICS in accordance with
                 10  U.S.C.  § 2330a, subsection (e), and the OSD Guidance, and submit a certification
                 letter to OUSD(P&R) to signify completion of their review.                                        OSD issued separate
                 guidance to the Components for the FY 2013 ICS period.

                 Public Law 113-66, “National Defense Authorization Act for FY 2014,” Subtitle E,
                 “Total Force Management,” Section 951, “Reviews of Appropriate Manpower
                 Performance,” December 26, 2013, tasks the DoD Office of Inspector General to
                 review DoD’s efforts to compile the ICS, the subsequent Component review, and the
                 actions taken to resolve the findings of the reviews in accordance with section 2463,
                 title 10, United States Code (10  U.S.C.  §  2463  [2012]).3                                    In January 2014, we
                 discussed the scope of our agreed-upon procedures engagement in response to
                 this requirement with HASC staff.                            The Government Accountability Office was
                 required to report on DoD’s ICS process starting with the FY 2008 inventory.
                 Public Law 113-66 also tasked the Government Accountability Office to continue
                 its review of DoD’s ICS processes—specifically, the 90-day review and DoD’s use
                 of the ICS data.




                 	 2	
                        A CFTE is a standard measure of labor that equates to 1 year of full-time work.
                 	3	
                        Section 2463, title 10, United States Code, “Guidelines and Procedures For Use of Civilian Employees to Perform
                        Department of Defense Functions,” outlines requirements to ensure that consideration is given to having DoD civilians
                        perform functions currently performed by contractors.




2 │ DODIG-2014-114
                                                  Agreed-Upon Procedures Performed and Results on
                                                   DoD’s FY 2012 Inventory of Contracts for Services




Agreed-Upon Procedures Performed and
Results on DoD’s FY 2012 Inventory of
Contracts for Services
This section contains agreed-upon procedures related to ICS requirements established
by 10 U.S.C. § 2330a (2012) and the results of completing those procedures.



Overall Procedures
To perform our agreed-upon procedures, we assessed DoD’s compliance with Federal
and DoD requirements when Components compiled and certified the FY  2012 ICS.
Specifically, we:

         •	 assessed whether Components submitted a FY 2012 ICS,

         •	 made observations on the methods Components used to compile the ICS,

         •	 assessed whether Components certified the review of the ICS, and

         •	 made observations on the sources and methods used to conduct and certify
            a review of the ICS.

In addition, HASC staff requested that we report on any need to revise legislation
or change implementing guidance.


Procedure 1: Confirm DoD’s Inventory of Contracts for
Services Submission
To assess whether DoD Components submitted a FY 2012 ICS, we interviewed
OUSD(AT&L) and OUSD(P&R) officials and obtained DoD’s report to Congress on
the FY 2012 ICS. We also compared DoD’s FY  2012 ICS to the required elements in
10 U.S.C. § 2330a (2012).


Results: Compilation and Submittal of the Inventory
of Contracts for Services
DoD submitted an ICS to Congress, as required by 10 U.S.C. § 2330a (2012).
OUSD(AT&L) submitted DoD’s FY  2012 ICS on July 16, 2013, which was 2 weeks
after June  30,  2013, the date required by 10 U.S.C. § 2330a. An OUSD(AT&L) official
stated that the submission was late because not all Components provided complete
information on time.



                                                                                     DODIG-2014-114 │ 3
Agreed-Upon Procedures Performed and Results on
DoD’s FY 2012 Inventory of Contracts for Services


                 DoD’s FY 2012 ICS included information for 29 Components4 that reported a total
                 of $129.6 billion in service contracts, which supported an estimated 670,176 CFTEs.
                 About 97 percent of the total CFTEs were accounted for by 10 Components, with
                 the three Military Services accounting for 86 percent of the CFTEs. (See Table  1.)
                 The remaining 19  Components each reported fewer than 5,000 CFTEs, with 12 of
                 those Components each reporting fewer than 500 CFTEs.

                 Table 1. Top Ten Components by Total CFTEs
                                       Component Name                                      Total CFTEs               Percent of DoD CFTEs
                     Army                                                                    240,620                             36
                     Navy                                                                    192,332                             29
                     Air Force                                                               141,318                             21
                     Missile Defense Agency                                                    18,517                              3
                     Defense Information Systems Agency                                        15,123                              2
                     Defense Logistics Agency                                                  12,368                              2
                     TRICARE Management Activity                                                9,877                              1
                     United States Special Operations Command                                   8,829                              1
                     Defense Commissary Agency                                                  7,110                              1
                     Defense Threat Reduction Agency                                            5,100                              1
                     Total Percentage of all DoD ICS CFTEs                                                                       97


                 Components generally reported the required elements5 in DoD’s FY  2012 ICS
                 Report to Congress by providing information specified in the OSD Guidance.
                 For the 29 Component ICS submissions, 18  Components had complete information
                 for the six required elements, whereas the remaining 11  Components either had
                 incomplete information for one or more required elements or did not include a
                 required element.                Table 2 shows the number of Components that had complete
                 information, that had incomplete information, or that did not include information
                 for each of the six elements.




                 	 4	
                        In addition to the 29 Components reported, DoD’s ICS noted that the submissions for the Joint Chiefs of Staff and the
                        United States Central Command were classified. The United States Pacific Command also submitted a classified ICS,
                        but this submission was not noted in the DoD ICS. DoD’s ICS also mentioned classified submissions for two intelligence
                        agencies (National Geospatial-Intelligence Agency and Defense Intelligence Agency), which we did not include in our
                        review. Furthermore, United States Southern Command’s submission was not initially included in DoD’s ICS; however,
                        we obtained the submission separately and counted this submission as one of the 29 Components.
                 	 5	
                        We did not look at element (c)2(G) from 10 U.S.C. § 2330a because it required the reporting of information from an
                        application that was not fully functional for the FY 2012 ICS time frame.




4 │ DODIG-2014-114
                                                               Agreed-Upon Procedures Performed and Results on
                                                                DoD’s FY 2012 Inventory of Contracts for Services


Table 2. Completeness of FY 2012 ICS Elements
    Elements Required by 10 U.S.C. § 2330a            Not Included      Complete      Incomplete
 Functions and missions performed by                                       27              2
 the contractor
 Contracting, administering, and requiring                                 24              5
 organization
 Funding source                                            1               24              4
 Fiscal year the activity first appeared in the ICS                        27              2
 CFTEs                                                                     28              1
 Personal services determination                           1               22              6



Procedure 2: Observations on Inventory of Contracts for
Services Compilation Methods
To make observations on the sources and methods to compile the ICS, we
reviewed Component transmittal letters and interviewed representatives from those
Components to obtain an understanding of their methodologies.


Results 2a: Various Data Sources Used to Compile the Inventory
of Contracts for Services
DoD Components used different sources to obtain information to compile their
FY  2012 ICS.          The Army used its existing Contractor Manpower Reporting
Application to compile its inventory listing.             This application collects information
on labor-hour expenditures by function, funding source, and mission supported
on contracted efforts.          The remaining Components generally used the Federal
Procurement Data System–Next Generation, a computer-based system Government
contracting officers use to collect and report procurement data. Federal Procurement
Data System–Next Generation is the central repository of Federal contracting
information.      At least 21 Components indicated they supplemented the Federal
Procurement Data System–Next Generation data with other sources, such as data
from their financial or contracting systems.              For example, United States Southern
Command  used an internal contractor registration and tracking system, and
the Missile Defense Agency conducted internal data calls to obtain interagency
acquisition data.




                                                                                                   DODIG-2014-114 │ 5
Agreed-Upon Procedures Performed and Results on
DoD’s FY 2012 Inventory of Contracts for Services


                 Results 2b: Calculation of Contractor Full-Time Equivalents
                 DoD Components used one or more of the five methods established in the
                 OSD Guidance to calculate and report CFTEs in the ICS. There were 25 Components
                 that used factors provided by the Army’s Contractor Manpower Reporting
                 Application for each Product Service Code (PSC) and multiplied these factors
                 by the dollar amount obligated.     About half of the 25  Components that used the
                 PSC factors made adjustments to this information or used additional data sources
                 recognized by the OSD Guidance, such as direct labor hours reported by the
                 contracting officer’s representatives or  information collected from contract invoices.
                 One Component, the United States Transportation Command, used a method
                 not established in the OSD Guidance to calculate CFTEs.           Command personnel
                 explained that OSD was aware that they used an in-house formula to calculate
                 CFTEs for airlift service contracts, stating that using this in-house formula provided
                 more accurate results because they had access to direct labor rates and other
                 pricing information.


                 Results 2c: Limitations to Capturing DoD’s Inventory
                 of Contracts for Services Universe
                 DoD was inconsistent in reporting its service contracts for the FY 2012 ICS. Through
                 discussions with Component personnel, we identified the following limitations:

                         •	 Three Components reported service contracts only above a certain dollar
                            threshold.   Specifically, the United States European Command and the
                            United States Central Command used a $100,000 threshold based on
                            their internal acquisition review requirements, and the United States
                            Northern     Command    used   the   simplified   acquisition   threshold   of
                            $150,000 to report services that were part of supply contracts.

                         •	 Six Components did not report services that were part of supply contracts.

                         •	 Six Components reported only direct-funded contracts and not those
                            awarded by other agencies on their behalf.          An OUSD(P&R) official
                            explained that Components should report all service contracts for
                            which they are the requiring activity.

                         •	 Components did not always verify whether another organization was
                            reporting for them.

                 OSD plans to address many of these limitations with the implementation of the
                 Enterprise-wide Contractor Manpower Reporting Application, a data collection
                 system to capture service contract information.      OSD also plans to establish an


6 │ DODIG-2014-114
                                                                          Agreed-Upon Procedures Performed and Results on
                                                                           DoD’s FY 2012 Inventory of Contracts for Services


office, called the Total Force Management Support Office, to oversee the system and
assist with DoD’s ICS efforts. However, OUSD(P&R) officials explained that continued
impediments, such as a lack of dedicated resources, hinder OSD’s progress to fully
implement the system.6                   We request that OUSD(AT&L) and OUSD(P&R) provide
an update on the status, including time frames, for staffing the Total Force
Management Support Office.

Not all DoD Components, as defined by DoD Directive 5100.01, “Functions of the
Department of Defense and Its Major Components,” December 21, 2010, participated
in the FY 2012 ICS process. OUSD(P&R) officials explained that DoD’s FY 2012 ICS
submission did not include all Components that used contractors to perform services
because DoD did not have the resources to enforce the reporting requirement for
every Component.                 Additionally, it was difficult for some Components to report
because they did not have access to the required information. OUSD(P&R) officials
plan to eventually capture all DoD service contracts in the ICS, but as of the FY 2012
ICS reporting and review period, officials focused on capturing the actions of
those Components that account for the majority of DoD’s service contracts.
OUSD(P&R)’s goal is to make the requiring activity responsible for the ICS tracking,
reporting, and certification. However, personnel explained that this can only occur
once the Enterprise‐wide Contractor Manpower Reporting Application is fully
functional. DoD was using the Army’s Contractor Manpower Reporting Application
as a baseline to establish a DoD-wide application.                              OUSD(P&R) officials explained
that the decision on whether a Component is required to participate in the ICS is
regularly reassessed and is at the discretion of OUSD(AT&L) and OUSD(P&R).
However, as of July 2014, DoD has not provided formal guidance, such as an
instruction, to identify the Components required to submit an ICS.                                        OUSD(AT&L)
and OUSD(P&R) should clarify policies and procedures to identify all Components
required to submit an ICS.


Procedure 3: Assess Certification Status of Review
To assess whether DoD Components certified their review of the FY 2012 ICS, we
reviewed certification letters and interviewed Component representatives.




	 6	
       See Government Accountability Office report GAO-14-491R, “Defense Acquisitions: Update on DoD’s Efforts to Implement
       a Common Contractor Manpower Data System,” May 19, 2014, for information on DoD’s status and challenges with
       implementing the system.


                                                                                                                              DODIG-2014-114 │ 7
Agreed-Upon Procedures Performed and Results on
DoD’s FY 2012 Inventory of Contracts for Services


                 Results: Review and Certification of the Inventory
                 of Contracts for Services
                 Of the 32 Components7 that submitted an ICS, 30 submitted a certification letter
                 for the FY 2012 reporting period.                        As of July 10, 2014, the Air Force had not
                 submitted a certification letter. Air Force officials explained that they had completed
                 the review but had not compiled the results because of insufficient resources and
                 higher-priority requirements. They stated they still intend to submit a certification
                 letter for the FY 2012 ICS but are focusing on issuing guidance for the FY  2013 ICS
                 process first. In addition, as of May  29,  2014, the United States Pacific Command
                 had not submitted a certification letter and did not indicate a plan to do so.                                               A
                 Command official explained that they overlooked the certification letter requirement.

                 In accordance with 10 U.S.C. § 2330a, subsection (e), and as directed by OUSD(P&R)
                 officials, the Components were required to submit their certified ICS reviews
                 within 90 days of OSD’s July 16, 2013 inventory submission.8                                             Fifteen of the
                 30 Components submitted certifications after the 90-day deadline. OUSD(P&R) and
                 Component officials cited the Government shutdown, furloughs, large workloads,
                 personnel turnover, and higher priorities as causes of late certification submissions.
                 Of the 15 Components submitting late certification letters, 4 were less than 30 days
                 late, 5 were between 30 and 90 days late, and 6 were more than 90 days late.9


                 Procedure 4: Observations on Certification Methodology
                 To make observations on the sources and methods used to conduct and certify a
                 review of the ICS, we reviewed 30 Component certification letters and interviewed
                 representatives from those 30 Components.


                 Results 4a: Methodologies Used to Conduct the Review
                 DoD Components employed different methodologies when reviewing and certifying
                 the ICS. In general, contracting, manpower and readiness, or Comptroller personnel
                 performed the ICS review and certification.  Sometimes, more than one directorate
                 for a Component participated.



                 	 7	
                      In addition to the 29 Components discussed in Procedure 1, this also includes the United States Central Command,
                      United States Pacific Command, and Joint Staff, who submitted a classified ICS.
                 	 8	
                      Language in 10 U.S.C. § 2330a required DoD to report on its ICS no later than June 30, 2013; however, DoD was 16 days late
                      in submitting its ICS to Congress. As a result, Components had until October 16, 2013, to certify the review of their ICS,
                      instead of September 30, 2013.
                 	9	
                      The United States Central Command initially submitted its certification letter on July 1, 2013. However, Command
                      personnel determined that it did not include complete information and submitted a revised certification on
                      March 12, 2014. We used the revised certification for our engagement.




8 │ DODIG-2014-114
                                                                            Agreed-Upon Procedures Performed and Results on
                                                                             DoD’s FY 2012 Inventory of Contracts for Services


DoD Components used different methodologies to select contracts to review.
The OSD Guidance required Components to review at least 80 percent of the
functions, known as PSCs, listed in the ICS during the review.10 Of the 30 Components
that submitted certification letters, 19  reviewed every contract listed in the ICS
and 4 other Components reviewed at least 80 percent of the PSCs. The remaining
seven Components reviewed a percentage of the contracts, CFTEs, or dollars listed
in the ICS.               At times, Components interpreted the OSD Guidance differently.
For example:

                •	 A Defense Commissary Agency official explained that the Agency
                   reviewed one contract listed under each PSC group, which covered
                   100 percent of the functions.

                •	 TRICARE Management Activity (now Defense Health Agency) officials
                   interpreted the guidance to require Components to review 80 percent
                   of all the contracts listed under each PSC group.

                •	 A Navy official explained that it would be difficult to implement a
                   consistent review based on a percentage of functions across the Navy;
                   therefore, they reviewed 100 percent of the contracts rather than
                   a percentage.

DoD Components used different methodologies to conduct the ICS review.
Component methodologies included relying on existing acquisition procedures,
discussions with Component personnel familiar with the contract, reviewing
contract documentation, and comparing the ICS to other reports on commercial and
other inherently governmental functions.                             The following are examples of review
methodologies that Component personnel described.

                •	 Navy officials stated in their certification letter that personnel reviewed
                   all FY  2012 contracts for services to determine whether they provide
                   for unauthorized personal services, inherently governmental functions,
                   functions closely associated with inherently governmental functions,
                   critical functions, or commercial functions.                           Navy officials explained
                   that the heads of the Contracting Activities worked with the requiring
                   activity to conduct the reviews.



	 10	
        The 80 percent review requirement was an increase from OSD’s guidance for the FY 2011 ICS, when Components were
        required to review 50 percent of the contracts on the ICS. For the FY 2013 ICS review, OUSD(AT&L) and OUSD(P&R) issued
        guidance directing Components to review all contracts on the ICS.




                                                                                                                                 DODIG-2014-114 │ 9
Agreed-Upon Procedures Performed and Results on
DoD’s FY 2012 Inventory of Contracts for Services


                          •	 United     States     Transportation   Command   personnel   explained    that
                               they compared performance work statements against a checklist that
                               contained more than 50 questions to assess contracts to determine whether
                               they were, for example, inherently governmental or for personal services.

                          •	 A United States Southern Command official stated the Command did
                               not perform a specific review of the ICS but instead relied on pre-award
                               processes that provide 100 percent review for all new requirements,
                               as well as when a contract is modified or an option is exercised.
                               Furthermore, the official explained that Command personnel ensure
                               that no critical functions, personal services, inherently governmental
                               functions, or closely associated with inherently governmental functions
                               exist when developing the performance work statement and during
                               the legal review.

                 DoD Components cited procedures used during normal acquisition processes to
                 address portions of the OSD Guidance related to the ICS review, such as comparing
                 the inventory of Military and Government civilian functions to the inventory
                 of contracts for services, and reviewing how the contract is performed and
                 administered.       Examples of these procedures that Components used include
                 pre-award and legal reviews, completion of checklists when awarding new or
                 follow-on work, performance and in-process reviews, contracting officer and
                 contracting officer’s representative oversight, and in-sourcing reviews unrelated
                 to the ICS.

                 OSD is developing a standard form to assist Components with justifying new and
                 follow-on contracts for services and assessing whether the work is appropriate to
                 be contracted out. Specifically, the draft form contains questions to ensure certain
                 ICS elements are being reviewed before Component personnel award service
                 contracts.     We request that OUSD(AT&L) and OUSD(P&R) provide an update on
                 the status, including time frames, for finalizing the service contract review form.


                 Results 4b: Inventory of Contracts for Services Review Results
                 Section 2330a, title 10, United States Code (2012) required Components to review
                 their ICS listings and ensure that any personal services contracts were entered into
                 and performed in accordance with applicable statutory and regulatory requirements;
                 that the ICS activities did not include any inherently governmental functions; and
                 that to the maximum extent practicable, the ICS did not include functions
                 closely associated with inherently governmental functions.




10 │ DODIG-2014-114
                                                                              Agreed-Upon Procedures Performed and Results on
                                                                               DoD’s FY 2012 Inventory of Contracts for Services


The Army was the only Component to identify inherently governmental functions
and unauthorized personal services.                            The Army identified 62 CFTEs supporting
inherently governmental functions and 19 CFTEs supporting unauthorized personal
services contracts.

In addition, 13 Components identified functions closely associated with inherently
governmental functions.                   These Components reported about $5.5 billion for more
than 32,000 CFTEs supporting closely associated with inherently governmental
functions.11          The Army accounted for about 88 percent of the CFTEs that were
closely associated with inherently governmental functions, and the Navy accounted
for about 8 percent.


Results 4c: Certification Letters Did Not Address Required Elements
Of the 30 Components that submitted a certification letter, 29 Components did
not include all eight of the elements required by the OSD Guidance. Only TRICARE
Management Activity (now Defense Health Agency) included a discussion of each
element.          Most Components addressed five of the eight required elements and only
partially addressed or did not address the remaining three elements in their certification
letters, as shown in Table 3.                    See Appendix  B for a breakout of Component-specific
information and for additional details about the required elements and our methodology.

Table 3. FY 2012 Certification Letter Elements
                                                                      Fully                Partially
                           Element                                                                           Not Addressed
                                                                    Addressed             Addressed
  Criteria and methodology                                               18                     6                     6
  Delineation of results                                                 28                     1                     1
  Inherently governmental functions or                                   29                     1                     0
  unauthorized personal services contracts
  Closely associated with inherently                                     27                     1                     2
  governmental functions
  Exempt from private-sector performance,
  require special consideration, or being                                 6                    10                    14
  considered for realignment for cost reasons
  Program and budget reviews                                             22                     0                     8
  Table delineating results                                              24                     1                     5
  Funding                                                                 4                     0                    26


	11	
       These totals reflect only 12 Components. The Defense Contract Management Agency certification letter stated that the
       agency had two contracts that included closely associated with inherently governmental functions, but the certification
       letter did not include a table to report the dollar value or CFTEs associated with these functions, as required by the
       OSD Guidance.




                                                                                                                                 DODIG-2014-114 │ 11
Agreed-Upon Procedures Performed and Results on
DoD’s FY 2012 Inventory of Contracts for Services


                 In some instances, DoD Components only partially addressed a required element.
                 For example:

                         •	 In the certification letter, Missile Defense Agency personnel explained the
                            criteria for selecting contracts for review. Specifically, personnel reviewed
                            contracts from five program offices that accounted for 80 percent of the
                            agency’s service contracts.    However, personnel did not provide details
                            about the methodology they used to perform the review.

                         •	 As previously discussed, Army officials identified inherently governmental
                            functions and unauthorized personal services.         However, the Army’s
                            certification letter did not discuss specific actions taken to divest or
                            realign these functions in its certification letter, as required by the OSD
                            Guidance. Army personnel explained in the certification letter only that
                            the Army was taking appropriate corrective action regarding identified
                            inherently governmental functions and unauthorized personal services.
                            Personnel also stated in the certification letter that the Army was
                            reviewing additional CFTEs and that no action would be taken until
                            the review was complete. An Army official explained that the
                            Army conducts these reviews throughout the year and takes action
                            when necessary.

                 DoD Components did not respond to some elements in the certifications because
                 personnel stated that the elements did not apply. For example:

                         •	 Only 6 of the 30 Components fully addressed the OSD Guidance
                            requirement to identify contracted services that are exempt from
                            private-sector performance, require special considerations, or are being
                            considered for cost reasons, to be realigned to Government performance
                            in their certifications.   Personnel from at least six Components stated
                            that they reviewed the inventory and found that the situations did
                            not apply, which is why they did not address or only partially addressed
                            this requirement in their certification letters.

                         •	 Personnel from at least eight Components did not address overseas
                            contingency operation funding in their certification letters because they
                            explained their ICS did not contain these types of contracts.

                         •	 United States Southern Command officials stated that they did not
                            include a table in their certification letter because all contracts were
                            commercial and the other scenarios did not apply.



12 │ DODIG-2014-114
                                                     Agreed-Upon Procedures Performed and Results on
                                                      DoD’s FY 2012 Inventory of Contracts for Services


However, when Components do not address an element in their certification letters,
it is not clear whether personnel reviewed the ICS for this element and it was
not applicable, or whether they did not review the ICS for this element. OUSD(AT&L)
and OUSD(P&R) should clarify policies and procedures on whether a response is
necessary to address an element that does not apply to a Component’s inventory
or review.


Results 4d: Certifications Provided Varying Amount of Detail
Components varied in the level of information they provided in the 30  certification
letters.   The following sections provide examples of the types of information that
Components included in certification letters to address the elements required by
the OSD Guidance.

Methodology and Criteria Descriptions.             DoD Components provided varying
amounts of information in the certification letters to describe the methodology
used to conduct the reviews and the criteria for selecting contracts to review.
Component discussions ranged from summaries of OSD requirements, without further
explanation, to describing the specific steps personnel performed during the review.
For example:

           •	 United States Africa Command personnel stated in their certification
             letter that its Manpower Branch used a centralized approach to
             review service contracts in accordance with the OSD Guidance and
             10 U.S.C. § 2330a subsection (e).

           •	 United States European Command personnel stated in their certification
             letter that they reviewed all 20  service contracts by comparing ICS data
             with information vetted and administered by the Command’s Contract
             Management Board.         This board reviewed new and recurring contract
             actions to ensure that the contract complied with applicable statutory
             and regulatory guidance, addressed Command priorities, and was an
             effective use of resources.     Command personnel also discussed in the
             certification the processes used by the Manpower Governance Board
             to identify and determine the appropriate mix of manpower and
             private-sector support.




                                                                                       DODIG-2014-114 │ 13
Agreed-Upon Procedures Performed and Results on
DoD’s FY 2012 Inventory of Contracts for Services


                 Compliance with Applicable Regulations and Guidance.                To address the OSD
                 Guidance requirement to include in the certification the “delineation of the results
                 in accordance with all applicable title 10 provisions and this guidance,” Component
                 certification letters included statements such as:

                         •	 The activities on the ICS are being performed in accordance with applicable
                             statutory and regulatory requirements.

                         •	 The service contracts were awarded and are administered in accordance
                             with all applicable title 10 provisions and the OSD Guidance.

                         •	 This memorandum certifies that the service contracts were reviewed and
                             are performed in accordance with 10 U.S.C. § 2330a (e), “Review and
                             Planning Requirements.”

                 However, despite such statements, Components generally did not comply with this
                 requirement, because only one Component actually addressed all the certification
                 letter elements required by the OSD Guidance. An OUSD(P&R) official stated this
                 element was intended more as a thinking and discussion driven process for both
                 the preparer and the certifier, meant to create a dialog about appropriate use
                 of service contracts, and not necessarily designed to certify compliance.

                 Functions    Closely    Associated    With    Inherently     Governmental      Functions.
                 Component personnel identified functions closely associated with inherently
                 governmental functions in 13  of the 30  certification letters.       The OSD Guidance
                 required Components to identify the contracts under which these functions are
                 being performed and provide an explanation of steps taken to ensure appropriate
                 Government control and oversight of these functions, or if necessary, a plan to
                 either divest or realign such functions to Government performance.

                 Components varied in the amount of detail that they provided in their certification
                 letters to address the requirement. Specifically, personnel for:

                         •	 five Components identified the number of contracts or contract actions
                             that had closely associated with inherently governmental functions.

                         •	 four Components discussed the functions that the activities closely
                             associated with inherently governmental functions supported. For
                             example, the majority of the functions Defense Logistics Agency
                             identified in its certification were to help achieve audit readiness. Officials




14 │ DODIG-2014-114
                                                  Agreed-Upon Procedures Performed and Results on
                                                   DoD’s FY 2012 Inventory of Contracts for Services


          explained in the certification that they would need less contractual
          support after achieving an unqualified audit opinion.

        •	 one Component, United States Special Operations Command, did not
          describe any control or oversight activities or a plan to divest or realign
          the functions.

        •	 three Components provided broad statements stating sufficient controls
          and oversight were in place.      For example, Defense Security Service
          stated that contracts involving the performance of functions closely
          associated with inherently governmental functions receive sufficient
          control and oversight.

        •	 nine   Components   described   control   and   oversight   activities,   for
          example: that contractors did not make decisions for or on behalf of the
          Government, that functions were directly managed and reviewed by
          Government personnel to ensure that contracted functions did not
          expand to or interfere with Government employee responsibilities, that
          quality assurance and surveillance plans were enforced, or that the action
          was approved by general counsel.      For example, United States Central
          Command explained that Government quality assurance surveillance
          plans are robust and mandatory contracting officer’s representative
          training is extensive, resulting in diligent Government oversight of
          contractor performance.

Inventory of Contracts for Services Results and Annual Program Reviews
and Budget Processes.      OSD Guidance required Components to discuss in their
certification letters “actions being taken or considered with regards to annual
program reviews and budget processes to ensure appropriate (re)allocation of
resources based on the reviews conducted.” In the certification letters, Components
often cited existing review and approval processes to address this requirement
but did not specifically discuss how the ICS reviews affected those processes.
For example:

        •	 The Defense Contract Management Agency implemented a monthly Service
          Acquisition Review Board to evaluate and validate the requirements for
          future, follow-on, or ongoing contracted services. The board also identifies
          contracted services that could be converted to Government performance.




                                                                                       DODIG-2014-114 │ 15
Agreed-Upon Procedures Performed and Results on
DoD’s FY 2012 Inventory of Contracts for Services


                          •	 Navy officials did not discuss program reviews and budget processes or
                            how the ICS is used in the certification; an official believed this element was
                            hard to articulate and required much explanation. Furthermore, the official
                            believed that the reviews were performed too late to affect budget decisions.

                 An OUSD(P&R) official stated that she would like to see Components using the
                 ICS but that such usage might be premature because Components lack a system
                 to provide complete, real-time data.

                 Personnel at some of the Components believed the OSD Guidance was not always
                 clear and expressed a need for OSD to clarify its guidance.           Moreover, because
                 some of the requirements were open-ended, personnel explained they were unsure
                 how to address some of the requirements and what level of detail personnel should
                 provide in the certification letter.    Some personnel believed OSD should revise
                 the guidance to identify the minimum reporting requirements for each element
                 and identify what specifics OSD desires.        A Navy official believed the reviews
                 contained many elements for such a limited time to report.             OUSD(AT&L) and
                 OUSD(P&R) should clarify policies and procedures to include expectations of
                 what type of information Components are required to provide in response to the
                 certification elements.


                 Results 4e: Use of the Inventory of Contracts for Services Data
                 Congress intended that DoD use the results of the ICS to help inform budgeting
                 and manpower decisions; however, Components generally did not use the results
                 of the ICS for this purpose.      Personnel at multiple Components explained the
                 results of the ICS could not directly influence budgeting and programming decisions
                 because the ICS results were outdated. In addition, Component personnel explained
                 that these types of decisions are based on future needs, requirements, and
                 constraints—attributes that cannot be estimated by historical data in the ICS.
                 Other Component personnel viewed the ICS review as an exercise but believed
                 it validates Components’ processes already in place. For example:

                          •	 A Defense Commissary Agency Official explained that the ICS data are
                            too old to be used directly because they report on a prior year’s budget
                            but stated the ICS can indirectly influence budget submissions. The ICS
                            identifies the level of service and support the agency needs and can be
                            used to help estimate the number of CFTEs needed in the future.
                            The ICS has indirect implications for the agency’s workforce mix, because
                            it can help estimate the resources needed to bring services in-house.



16 │ DODIG-2014-114
                                                    Agreed-Upon Procedures Performed and Results on
                                                     DoD’s FY 2012 Inventory of Contracts for Services


         •	 A Defense Microelectronics Activity official explained that personnel
            already understand the activity’s requirements and manpower mix. 
            During the annual budget process, officials consider the nature of the
            requirement, availability of Government personnel, and available funding. 
            The official explained that the processes behind the ICS shape decisions
            but that the actual ICS is not used because it is based on the past. For
            example, budget meetings are held every 2  weeks, and the information
            gained from the ICS is too old to provide insight to the meetings.

         •	 A Missile Defense Agency official explained the ICS is used indirectly
            to inform budget processes in future years, but historical information
            that is 2 or 3 years old cannot account for the current times and changing
            needs.    The official explained that because budget development is
            based on the future, not the past, the Agency must rely on and dedicate
            resources on upfront processes, not at the back end with the ICS.  


Summary
Components that participated in the FY 2012 ICS process generally included six
required elements in the ICS; however, DoD was inconsistent in reporting its
service contracts.    In addition, not all DoD Components participated in the
FY 2012 ICS process. OSD plans to capture a more complete ICS universe with the
implementation of the Enterprise-wide Contractor Manpower Reporting Application;
however, according to OUSD(P&R) officials, continued impediments, including a
lack of dedicated resources, hinder OSD’s progress in fully implementing the
application.   Half the Components that participated in the FY 2012 ICS process
submitted late certification letters and Components generally did not address
all the required elements and varied in the level of information provided within
it.   Furthermore, the OSD Guidance issued to provide instruction to Components
during the ICS compilation and review processes was not always clear.


Component Comments on Our Results
Although not required to comment, several Components provided informal unofficial
comments in response to the draft report, which we considered and made changes,
as appropriate, when preparing the final report.         Specifically, four Components
expressed concerns regarding our review of the certification letters and disagreed
with our categorization of whether the Component addressed, partially addressed,
or did not address the eight elements required by the OSD Guidance, as reflected




                                                                                      DODIG-2014-114 │ 17
Agreed-Upon Procedures Performed and Results on
DoD’s FY 2012 Inventory of Contracts for Services


                 in Table  3 and Appendix  B of the report. We stand by our conclusions12 but have
                 included additional information in Appendix  B to further explain our methodology
                 for reviewing Component certification letters.                            Uncertainty over how to address
                 certain elements in the certification letters highlights the need for OUSD(AT&L)
                 and OUSD(P&R) to provide Components with clarification, as we identified with
                 our recommendations.


                 Recommendations, Management Comments, and
                 Our Response
                 We recommend the Under Secretary of Defense for Acquisition, Technology,
                 and Logistics and the Under Secretary of Defense for Personnel and Readiness:


                 Recommendation 1
                 Provide an update on the status, including time frames, for staffing the
                 Total Force Management Support Office and finalizing the service contract
                 review form.


                 Office of the Secretary of Defense Comments
                 The Acting Assistant Secretary of Defense for Readiness and Force Management,
                 responding for the Under Secretary of Defense for Acquisition, Technology, and
                 Logistics and the Under Secretary of Defense for Personnel and Readiness, stated
                 that the Department cannot provide specific dates for establishing the Total Force
                 Management Support Office or implementing an approval form for service contracts.
                 The Acting Assistant Secretary stated that the Department is assessing the
                 information technology requirements, personnel alignment, and the specific roles
                 and responsibilities to be undertaken by the Total Force Management Support
                 Office.         Similarly, the Acting Assistant Secretary stated that the Department is
                 reviewing, streamlining, and standardizing an approval form for service contracts.
                 The Acting Assistant Secretary stated that the Department is committed to investing
                 the time and effort associated with fully coordinating this form (or other
                 commensurate process) and companion policy with stakeholders across the
                 Department and to implementing this form (or process) consistent with applicable
                 statutes, regulations, and DoD policies and procedures.




                 	 12	
                         In response to comments from the Defense Threat Reduction Agency, we changed our determination for element 5 from
                         “not addressed” to “partially addressed.”




18 │ DODIG-2014-114
                                                Agreed-Upon Procedures Performed and Results on
                                                 DoD’s FY 2012 Inventory of Contracts for Services


Our Response
Comments from the Acting Assistant Secretary of Defense for Readiness and
Force Management partially addressed the recommendation.      The Acting Assistant
Secretary did not include time frames or even an estimate for staffing the
Total Force Management Support Office and finalizing the service contract review
form.   We understand that specific dates to staff the Total Force Management
Support Office and finalize the service contract review form may not be known.
However, establishing time frames is important for measuring the Department’s
progress and to providing accountability over these actions, which are intended
to help address legislative requirements related to the tracking, reporting, and
management of service contracts.   We request that the Acting Assistant Secretary
provide comments on the final report.     Furthermore, we will follow up on the
status of these actions during our review of DoD’s FY  2013 inventory of contracts
for services.


Recommendation 2
Identify the Components required to submit an inventory of contracts for
services, both before and after implementation of the Enterprise-wide
Contractor Manpower Reporting Application.


Office of the Secretary of Defense Comments
The Acting Assistant Secretary of Defense for Readiness and Force Management,
responding for the Under Secretary of Defense for Acquisition, Technology, and
Logistics and the Under Secretary of Defense for Personnel and Readiness, agreed
and provided an enclosure listing 73  organizations required to report and certify
input for DoD’s inventory of contracts for services. The Acting Assistant Secretary
stated that for the FY 2014 inventory, the Department will include the listing
as an enclosure to its tasking and guidance memorandum to help ensure all DoD
Components are completing the required submission, either separately or in
combination with another organization.


Our Response
Comments from Acting Assistant Secretary of Defense for Readiness and Force
Management addressed all specifics of the recommendation, and no further comments
are required.




                                                                                  DODIG-2014-114 │ 19
Agreed-Upon Procedures Performed and Results on
DoD’s FY 2012 Inventory of Contracts for Services


                 Recommendation 3
                 Clarify policies and procedures related to inventory of contracts for services
                 processes, including the expectations of what type of information Components
                 are required to provide in response to the certification elements, and whether
                 a response is necessary to address an element that does not apply to a
                 Component’s inventory or review.


                 Office of the Secretary of Defense Comments
                 The Acting Assistant Secretary of Defense for Readiness and Force Management,
                 responding for the Under Secretary of Defense for Acquisition, Technology, and
                 Logistics and the Under Secretary of Defense for Personnel and Readiness, agreed.
                 The Acting Assistant Secretary stated that the Department will modify the guidance
                 sent to Components for the compilation and review of the FY 2014 inventory.
                 Before issuing the guidance, the Department will provide a draft of the revised
                 guidance to the community of interest for input and recommendation.


                 Our Response
                 Comments from the Acting Assistant Secretary of Defense for Readiness and Force
                 Management addressed all specifics of the recommendation, and no further comments
                 are required.




20 │ DODIG-2014-114
                                                                                                                                         Appendixes




Appendix A
Scope and Methodology
We conducted this agreed-upon procedures engagement from March 2014 to
August  2014 in accordance with generally accepted Government auditing standards,
which incorporate attestation standards established by the American Institute
of Certified Public Accountants.                         The sufficiency of these procedures is solely the
responsibility of those parties specified in this report.                                       Consequently, we make
no representation regarding the sufficiency of the procedures described in the
report either for the purpose for which this report has been requested or for any
other purpose.

We were not engaged to and did not conduct an examination, the objective of
which would be expressing an opinion on compliance.                                             Accordingly, we do not
express such an opinion. Had we performed additional procedures, other matters
might have come to our attention that we would have reported to you. HASC staff
requested that we report on any need to revise legislation or change implementing
guidance; we discuss this need in the report.

This report is intended solely for the information and use of the HASC, OUSD(AT&L),
and OUSD(P&R) and is not intended to be used by those who have not agreed to
the procedures or have not taken responsibility for the sufficiency of the procedures
for their purposes. However, the report is a matter of public record, and its distribution
is not limited; thus, we will post the report on our website and provide copies
on request.

We met with and discussed FY 2012 ICS compilation and certification efforts with
officials from OUSD(AT&L), OUSD(P&R), and those responsible for compiling and
reviewing the inventory for 32 DoD Components.                                         See Appendix B for a listing
of the 32  Components.                     We obtained DoD’s FY 2012 ICS Report and all available
FY  2012 Component ICS transmittal and certification letters* and compared the                        13




documents against requirements from Section 2330a, title 10, United States Code,
“Procurement of Services:                        Tracking of Purchases,” (2012) and the OUSD(AT&L)
and OUSD(P&R) “Guidance for the Submission and Review of the Fiscal Year 2012
Inventory of Contracts for Services,” February 4, 2013, to identify inconsistencies and
to make observations on the completeness of data.

	
    *	   We did not review the ICS for 3 of the 32 Components included in our engagement, specifically the Joint Chiefs of Staff, the
         United States Central Command, and the United States Pacific Command because their ICS submissions were classified.
         Furthermore, the United States Pacific Command did not submit a transmittal memorandum. As of the date of this report,
         2 of the 32 Components included in our engagement did not submit certification letters.


                                                                                                                                    DODIG-2014-114 │ 21
Appendixes



                 The OSD Guidance required Components to discuss eight elements in their
                 certification letters to signify completion of their FY 2012 ICS review. We reviewed
                 each certification letter to determine whether it addressed the OSD required
                 elements.    This review was limited to the information included in Component
                 certification letters. See Appendix B for details about the OSD required elements
                 and our methodology for reviewing the Component certification letters.

                 During our engagement, we also conducted interviews with Component personnel
                 and obtained additional information on how personnel compiled and reviewed
                 their inventories.   We presented this supplemental information throughout the
                 report, as applicable.    Observational statements made in the report are based on
                 individual   interviews   with     Component   personnel   and   may   not   reflect   all
                 Component-specific considerations related to the ICS process.


                 Use of Computer-Processed Data
                 We did not rely on computer-processed data to perform the agreed-upon procedures
                 for this attestation engagement.




22 │ DODIG-2014-114
                                                                                                                                            Appendixes




Appendix B
Review of Certification Letters
The OSD Guidance requires that Components address eight elements in their
certification letters.                 We reviewed each certification letter using the following
methodology to determine whether a Component certification letter addressed
the OSD-required elements.                          This review was limited to the information from
Component certification letters.                         When Components did not address an element
in their certification letters, it was not clear whether personnel reviewed the ICS
for the element and it was not applicable, or whether personnel did not review
the ICS for the element.                     Therefore, if a Component was silent about an element
in its certification letter, we considered the element not addressed. If a Component
only addressed part of an element in its certification, we considered the element
partially addressed.

Element 1—Explanation of the methodology used to conduct the review and
criteria for selecting contracts for review.

               Our Methodology:                 To address contract selection criteria, the Component
               had to describe how it created its sample of contracts or how it chose
               contracts to review.              To address review methodology, the Component had
               to describe how it conducted its ICS review (such as what processes were
               used) or what the Component actually assessed during the review (such
               as documentation, processes, or past review results). A Component had to
               explain how or what it specifically reviewed and could not solely rely
               on the statements it provided in the certification letter to address other
               required elements, such as the statement, “no inherently governmental
               functions were identified.” Furthermore, we did not consider an explanation
               of how a Component compiled its inventory sufficient to address this
               element if the explanation did not address the actual review of the ICS data.

Element 2—Delineation of the results in accordance with all applicable title 10
provisions and the February 2013 OSD Guidance.

              Our Methodology:                    We considered this element fully addressed if a
              Component included any type of statement regarding compliance with the
              OSD Guidance or another requirement when it conducted its ICS review.*                                                   14




	
    *	   We considered this element partially addressed for the Navy because personnel listed the OSD Guidance as a reference in
         the certification and discussed some of the results of their review, but did not make a statement regarding compliance with
         any requirement when conducting the ICS review.
                                                                                                                                  DODIG-2014-114 │ 23
Appendixes



                       This is because an OUSD(P&R) official stated that this element was intended
                       more as a thinking and discussion driven process meant to create a dialog
                       about appropriate use of service contracts.

                 Element 3—Identification of any inherently governmental functions or unauthorized
                 personal services contracts, with a plan of action to either divest or realign such
                 functions to Government performance.

                        Our Methodology:        We considered this element fully addressed if a
                        Component stated whether its inventory included functions in each of the
                        two scenarios.     If the Component identified any such functions, then it
                        would also have to discuss a plan of action to divest or realign them to
                        Government performance.

                 Element 4—Identification of contracts under which closely associated with
                 inherently governmental functions are being performed, with an explanation of
                 the steps taken to ensure appropriate Government control and oversight of such
                 functions, or if necessary, a plan to either divest or realign such functions to
                 Government performance.

                        Our Methodology:        We considered this element fully addressed if a
                        Component stated whether its inventory included functions for this scenario.
                        If a Component identified any such functions, then the Component would also
                        have to discuss the steps taken to ensure appropriate Government control and
                        oversight over the functions, or identify a plan of action to divest or realign
                        them to Government performance.

                 Element 5—Identification of contracted services that are exempt from private-sector
                 performance in accordance with DoD Instruction 1100.22, “Policy and Procedures
                 for Determining Workforce Mix,” April 12, 2010; those that require special
                 consideration under title 10 U. S. C. § 2463; or those that are being considered for
                 cost reasons, consistent with Directive Type Memorandum 09-007 (subsequently
                 replaced by DoD Instruction 7041.04, “Estimating and Comparing the Full Cost
                 of Civilian and Active Duty Military Manpower and Contract Support,” July 3, 2013),
                 to be realigned to Government performance.

                        Our Methodology:        We considered this element fully addressed if a
                        Component stated whether its inventory included functions in each of the
                        three scenarios.




24 │ DODIG-2014-114
                                                                                          Appendixes



Element 6—Actions taken or considered in regards to annual program reviews
and budget processes to ensure appropriate (re)allocation of resources based
on reviews conducted.

       Our Methodology:          We considered this element fully addressed if a
       Component included any description of a program review, or budget
       process, or any explanation of the actions being done or planned to ensure
       appropriate (re)allocation of resources.

Element 7a—A table showing the results of these reviews in terms of the number
of full-time equivalents and associated invoiced dollars associated with the following
categories:   inherently governmental functions; closely associated with inherently
governmental functions; critical functions; unauthorized personal services lacking
statutory authority; authorized personal services; and commercial functions. Actions
taken with respect to these categories should be summarized as: continue contract,
modify contract, in-source, or divest.

       Our Methodology:          We considered this element fully addressed if a
       Component included the table outlined in the OSD Guidance, or text within
       the certification letter, to identify the type of functions reviewed and the
       status, invoiced dollar amount, and the number of CFTEs associated with
       each reviewed function.

Element 7b—Explanation of the degree the functions reviewed are Overseas
Contingency Operation funded or reimbursable functions not currently included
in the Component’s budget estimate for contracted services.

       Our Methodology:          We considered this element fully addressed if a
       Component explained the extent its inventory included each of the
       two scenarios.




                                                                                     DODIG-2014-114 │ 25
Appendixes



        Review of Certification Letters (cont’d)
        The following table shows the 30 Components that submitted an FY 2012 ICS certification letter, and whether the Component
        fully responded to the eight elements required by the February 2013 OSD Guidance.



                         Component              Element 1       Element 2      Element 3       Element 4       Element 5       Element 6      Element 7a      Element 7b


                                                                                Partially                         Not             Not                            Not
            Army                                Addressed       Addressed                      Addressed                                      Addressed
                                                                               Addressed                       Addressed       Addressed                      Addressed
                                                                 Partially                                        Not             Not                            Not
            Navy                                Addressed                      Addressed       Addressed                                      Addressed
                                                                Addressed                                      Addressed       Addressed                      Addressed

            Air Force1

                                                 Partially                                                                                                       Not
            United States Africa Command                        Addressed      Addressed       Addressed       Addressed       Addressed      Addressed
                                                Addressed                                                                                                     Addressed
                                                   Not                                                            Not                                            Not
            United States Central Command                       Addressed      Addressed       Addressed                       Addressed      Addressed
                                                Addressed                                                      Addressed                                      Addressed
            United States                                                                                       Partially                        Not             Not
                                                Addressed       Addressed      Addressed       Addressed                       Addressed
            European Command                                                                                   Addressed                      Addressed       Addressed
            United States                                                                                       Partially                                        Not
                                                Addressed       Addressed      Addressed       Addressed                       Addressed      Addressed
            Northern Command                                                                                   Addressed                                      Addressed
            United States
            Pacific Command2
            United States Special                                                               Partially       Partially                                        Not
                                                Addressed       Addressed      Addressed                                       Addressed      Addressed
            Operations Command                                                                 Addressed       Addressed                                      Addressed
            United States                          Not                                            Not             Not             Not            Not             Not
                                                                Addressed      Addressed
            Southern Command                    Addressed                                      Addressed       Addressed       Addressed      Addressed       Addressed
            United States                                                                                       Partially                                        Not
                                                Addressed       Addressed      Addressed       Addressed                       Addressed      Addressed
            Strategic Command                                                                                  Addressed                                      Addressed
        1
             As of July 10, 2014, the Air Force had not submitted a certification letter for the FY 2012 inventory of contracts for services.
        2
             United States Pacific Command did not submit a certification letter for the FY 2012 inventory of contracts for services. As of May 29, 2014, a
             United States Pacific Command official did not indicate a plan to submit a certification letter.




        26 │ DODIG-2014-114
                                                                                                                                   Appendixes



Review of Certification Letters (cont’d)

          Component             Element 1    Element 2   Element 3   Element 4   Element 5    Element 6   Element 7a   Element 7b


United States                                                                       Not                    Partially      Not
                                Addressed    Addressed   Addressed   Addressed                Addressed
Transportation Command                                                           Addressed                Addressed    Addressed
Defense Advanced Research        Partially                                          Not          Not
                                             Addressed   Addressed   Addressed                            Addressed    Addressed
Projects Agency                 Addressed                                        Addressed    Addressed
                                   Not                                  Not       Partially                               Not
Defense Contract Audit Agency                Addressed   Addressed                            Addressed   Addressed
                                Addressed                            Addressed   Addressed                             Addressed
Defense Contract                   Not                                              Not                      Not          Not
                                             Addressed   Addressed   Addressed                Addressed
Management Agency               Addressed                                        Addressed                Addressed    Addressed
                                                                                  Partially
Defense Commissary Agency       Addressed    Addressed   Addressed   Addressed                Addressed   Addressed    Addressed
                                                                                 Addressed
Defense Finance and              Partially                                        Partially                               Not
                                             Addressed   Addressed   Addressed                Addressed   Addressed
Accounting Service              Addressed                                        Addressed                             Addressed
Defense Human                    Partially                                          Not                                   Not
                                             Addressed   Addressed   Addressed                Addressed   Addressed
Resources Activity              Addressed                                        Addressed                             Addressed
Defense Information                Not                                              Not                      Not          Not
                                             Addressed   Addressed   Addressed                Addressed
Systems Agency                  Addressed                                        Addressed                Addressed    Addressed
                                                                                                 Not                      Not
Defense Logistics Agency        Addressed    Addressed   Addressed   Addressed   Addressed                Addressed
                                                                                              Addressed                Addressed
                                                                                    Not
Defense Media Activity          Addressed    Addressed   Addressed   Addressed                Addressed   Addressed    Addressed
                                                                                 Addressed
Defense Micro-Electronics                                                         Partially                               Not
                                Addressed    Addressed   Addressed   Addressed                Addressed   Addressed
Activity                                                                         Addressed                             Addressed
                                                                                    Not                                   Not
DoD Education Activity          Addressed    Addressed   Addressed   Addressed                Addressed   Addressed
                                                                                 Addressed                             Addressed
Defense Security                                                                                             Not          Not
Cooperation Agency              Addressed    Addressed   Addressed   Addressed   Addressed    Addressed   Addressed    Addressed




                                                                                                                            DODIG-2014-114 │ 27
Appendixes



        Review of Certification Letters (cont’d)

                       Component          Element 1    Element 2   Element 3   Element 4   Element 5    Element 6   Element 7a   Element 7b


                                                                                            Partially                               Not
         Defense Security Service         Addressed    Addressed   Addressed   Addressed                Addressed   Addressed
                                                                                           Addressed                             Addressed
         Defense Threat                    Partially                                        Partially                               Not
                                                       Addressed   Addressed   Addressed                Addressed   Addressed
         Reduction Agency                 Addressed                                        Addressed                             Addressed
                                                                                              Not          Not                      Not
         Joint Staff                      Addressed    Addressed   Addressed   Addressed                            Addressed
                                                                                           Addressed    Addressed                Addressed
                                           Partially                                                                                Not
         Missile Defense Agency                        Addressed   Addressed   Addressed   Addressed    Addressed   Addressed
                                          Addressed                                                                              Addressed
         Director of Administration and                                                       Not          Not                      Not
         Management/Washington            Addressed    Addressed   Addressed   Addressed                            Addressed
                                                                                           Addressed    Addressed                Addressed
         Headquarters Service
         TRICARE Management Activity      Addressed    Addressed   Addressed   Addressed   Addressed    Addressed   Addressed    Addressed
         (Now Defense Health Agency)
         DoD Test Resource                   Not          Not                                 Not          Not                      Not
                                                                   Addressed   Addressed                            Addressed
         Management Center                Addressed    Addressed                           Addressed    Addressed                Addressed
                                                                                                                                    Not
         United States Forces, Korea      Addressed    Addressed   Addressed   Addressed   Addressed    Addressed   Addressed    Addressed
         Addressed                           18           28          29          27           6           22          24            4
         Partially Addressed                  6           1           1           1           10           0            1            0
         Not Addressed                        6           1           0           2           14           8            5           26
         TOTAL                               30           30          30          30          30           30          30           30




        28 │ DODIG-2014-114
                                     Management Comments




Management Comments
Office of the Secretary of Defense




                                           DODIG-2014-114 │ 29
Management Comments



                 Office of the Secretary of Defense (cont’d)




30 │ DODIG-2014-114
                                              Management Comments



Office of the Secretary of Defense (cont’d)




                                                    DODIG-2014-114 │ 31
Management Comments



                 Office of the Secretary of Defense (cont’d)




32 │ DODIG-2014-114
                                              Management Comments



Office of the Secretary of Defense (cont’d)




                                                    DODIG-2014-114 │ 33
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                             CFTE Contractor Full-Time Equivalent
                             HASC House Armed Services Committee
                               ICS Inventory of Contracts for Services
                              OSD Office of the Secretary of Defense
                      OUSD(AT&L) Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics
                      OUSD(P&R) Office of the Under Secretary of Defense for Personnel and Readiness
                              PSC Product Service Code
                            U.S.C. United States Code




34 │ DODIG-2014-114
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
